                        U.S. Department of Agriculture
                           Office of Inspector General




 General Procurement Oversight Audit of
Beltsville’s Agriculture and Research Center
    Steam Study Task Order Awarded to
              Perkins + Will, Inc.




                                Audit Report 02703-01-HQ
                                         September 2010
                             U.S. Department of Agriculture
                              Office of Inspector General
                                Washington, D.C. 20250




DATE:          September 15, 2010

REPLY TO
ATTN OF:       02703-01-HQ

TO:            Ed Knipling
               Administrator
               Agricultural Research Service

ATTN:          Steven Helmrich
               Director, Financial Management

FROM:          Gil H. Harden /s/
               Assistant Inspector General
               for Audit


SUBJECT:       General Procurement Oversight Audit of Beltsville’s Agriculture and
               Research Center Steam Study Task Order Awarded to Perkins + Will, Inc.


This report presents the results of the General Procurement Oversight Audit of Beltsville’s
Agriculture Research Center Steam Study task order awarded to Perkins + Will, Inc. Your
response to the official draft is included in its entirety as an exhibit to this report.

Regis & Associates, PC, was engaged to conduct the audit to ensure that the transparency
and accountability requirements of the Recovery Act are met and to ensure that Management
Services’ Recovery Act procurement activities are performed in accordance with Federal
Acquisition Regulations, Office of Management and Budget guidance, and Recovery Act
requirements. During our oversight of the contract, we reviewed Regis & Associates, PC’s
report and related documentation. Our review, as differentiated from an audit, in accordance
with Government Auditing Standards (issued by the Comptroller General of the United
States), disclosed no instances where Regis & Associates, PC’s audit did not comply, in all
material respects with Government Auditing Standards.

Based on your response, we are able to reach management decision on Recommendations 1
and 2 contained in this report. Please follow your agency’s internal procedures in forwarding
documentation for final action to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during
the review.
DATE:               September 7, 2010


REPLY TO
ATTN OF:            02703-01-HQ


TO:                 Jane A Bannon
                    USDA OIG


FROM:               Regis & Associates, PC /s/


SUBJECT:            Procurement Oversight Audit of Beltsville Agricultural Research Center Steam
                    Study Task Order Awarded to Perkins + Will, Inc.


The American Recovery and Reinvestment Act (the Recovery Act) of 2009 appropriated funds
to the U.S. Department of Agriculture’s (USDA) Agricultural Research Service (ARS) for
buildings and facilities’ critical deferred maintenance projects at ARS facilities. On July 6, 2009,
ARS awarded a firm fixed priced task order to Perkins + Will, Inc. of Atlanta, Georgia, under an
existing Indefinite Quantity Contract for Architectural and Engineering Services. Under the task
order Perkins + Will, Inc. was required to conduct an investigative study to address replacing the
steam distribution system, including boilers and the electrical system, serving campus research
facilities at the Beltsville Area Research Center in Beltsville, Maryland. ARS’ Facilities
Division performed the procurement activities including contract award, contract management,
contractor payment, and monitoring of Contractor Recovery Act reporting. ARS’ Financial
Management Division reported agency Recovery Act fund statistics on Recovery.gov through
SharePoint.1

Recovery Act funds require a high level of transparency and accountability from recipients so
that tax-payers will know how, when, and where tax dollars are being spent. The Office of
Management and Budget (OMB) issued various Implementing Guidelines that require Federal
agencies receiving Recovery Act funds to, among other things, post key communications on
Recovery.gov. In addition, a contractor that receives awards (or modifications to existing
awards) funded, in whole or in part, with Recovery Act funds must report information pertaining
to its Recovery funded activities to FederalReporting.gov.

The Recovery Act also provided USDA’s Office of Inspector General (OIG) with funding for
oversight and audits of USDA programs, grants, and activities funded by the Recovery Act.
OMB’s guidance ensures that OIGs will perform audits and inspections of their respective


1
    SharePoint is an electronic database for USDA’s Recovery Act data collection.
Audit Report 02703-01-HQ                                                                           1
agencies’ processes for awarding, disbursing, and monitoring Recovery Act funds to determine
whether safeguards exist for ensuring that funds are used for their intended purposes.

To ensure that the transparency and accountability requirements of the Recovery Act are met,
USDA/OIG contracted with Regis & Associates, PC to assist it in ensuring that ARS’ Recovery
Act procurement activities are performed in accordance with Federal Acquisition Regulations
(FAR), OMB guidance, and Recovery Act requirements. This audit was performed in accordance
with generally accepted government auditing standards, and standards established by the
American Institute of Certified Public Accountants.

During the initial phase of the audit, we reviewed applicable laws and regulations pertaining to
procurement activities, contract oversight, and Recovery Act reporting. We also obtained and
reviewed ARS’ organizational documents relating to management controls, policies and
procedures for the procurement and contracting functions, information systems, and other
processes that would ensure compliance with the Recovery Act.

The scope of this audit included a review of the contract award and contractor’s performance
monitoring through final vendor payment. Our audit work focused on the processes for
contractor selection, contract price determination, contract award, performance monitoring,
invoice processing and payment to determine whether ARS followed agency policies and
procedures, and Recovery Act requirements. We performed procedures to determine whether the
procurement was based on fair and reasonable price estimates; the contract was awarded to a
contractor with appropriate qualifications, experience, and past performance record; and that
processes were in place to ensure the contractor provided services/products in accordance with
contract terms. Nothing came to our attention during the course of the contract file review. Our
work also focused on ensuring that ARS’ contracting staff, including the contracting officer,
contract specialist, and engineering project manager, were experienced and qualified to award
and monitor this steam investigation project. No issues were noted in this area. In addition, we
reviewed ARS’ processes for reporting Recovery Act statistics on Recovery.gov and for
monitoring and reviewing recipient-reported information on Recovery.gov. During this part of
our review, we noted that ARS had not documented its policies and procedures for Recovery Act
reporting, and for monitoring and reviewing recipient reporting. We also noted errors in the
recipient’s information that were reported on Recovery.gov.

Processes and Procedures for Recovery Act Contracts Awarded By ARS’ Facilities
Division Have Not Been Formalized and Documented.

To comply with FAR part 4.15, American Recovery and Reinvestment Act – Reporting
Requirements, ARS’ Facilities Division implemented procedures to ensure that the contractor
that was awarded the steam investigation project, funded by the Recovery Act, reported
information on Recovery.gov. Some of the procedures implemented included: adding Recovery
Act and FAR Recipient reporting requirements in the statement of work and task order; and
ensuring that the procurement analyst communicated via email with the contracting officers and
contract specialists reminding them to monitor and review contractor reporting.



Audit Report 02703-01-HQ                                                                           2
ARS’ Financial Management Division reported obligations and disbursements of Recovery Act
funds and other related data pertaining to the Beltsville Agricultural Research Center’s steam
investigation project on Recovery.gov via SharePoint. It reconciled the amounts reported on
Recovery.gov with the amount in its core accounting system to ensure that Recovery.gov
amounts were supported.

 However, ARS does not have these internal processes and procedures documented. It also does
not have standardized and documented processes and procedures for reporting obligations and
disbursements of Recovery funds on Recovery.gov, and for reconciling these amounts reported
on Recovery.gov with its core accounting system.

OMB’s Circular No. A-123, Management Responsibility for Control, states that, “Management
is responsible for establishing and maintaining internal control to achieve the objectives of
effective and efficient operations, reliable financial reporting, and compliance with applicable
laws and regulations. To achieve consistency in the application of internal control, agencies and
individual Federal managers must take systematic and proactive measures to document internal
control.”

Also, USDA’s Procedure for Review of the American Recovery and Reinvestment Act Section
1512, Recipient Reported Information states that “Agencies will incorporate this guidance into
their internal operating procedures and submit a copy of their procedures to the American
Recovery and Reinvestment Act SharePoint site. This process will ensure that there are no
inconsistencies between agency and Department-wide data quality review procedures.”

We inquired as to why processes and procedures were not formalized and documented, and ARS
Facilities Division’s management stated that it did not see a need to document its monitoring and
review processes and procedures since USDA has already issued guidance. However, the
guidance issued by USDA was to assist the agency in developing its processes and procedures.
ARS Financial Management Division’s management also stated that it did not document its
Recovery Act reporting and reconciliation processes and procedures because it follows the same
processes and practices as it does for non-Recovery Act funded activities. However, we noted
that the reporting and reconciliation processes and procedures for other non-Recovery Act funds
were not documented.

As a result of the condition noted above, ARS’ ability to be consistent in monitoring and
reviewing Prime Recipient’s Recovery Act reporting, and its ability to continue to report and
reconcile its Recovery Act Fund obligations and disbursements with its core accounting system
may be adversely affected if there is a change in current personnel performing the services.

The lack of formal processes and procedures for reviewing Recipient reporting on Recovery.gov
can result in inaccurate reporting. We noted that the recipient reported $16,335.00 on
Recovery.gov as the amount invoiced as of September 30, 2009, whereas our review of contract
file documentation determined that the amount invoiced was $22,735.83, as of September 30,
2009. We brought this situation to the contracting officer’s attention and the cause is being
researched. We noted that the Prime Recipient’s report for the amount invoiced was corrected by
the time the contract was completed.

Audit Report 02703-01-HQ                                                                         3
Recommendation 1:

We recommend that ARS’ Facilities Division formalize and document its processes and
procedures for monitoring and reviewing recipient-reported information.

Recommendation 2:

ARS’ Financial Management Division should also formalize and document its processes and
procedures for reporting on Recovery.gov; this includes validating information on Recovery.gov
using its core financial system.




Audit Report 02703-01-HQ                                                                     4
Agency’s Response




                           USDA’S




     AGRICULTURAL RESEARCH SERVICE




            RESPONSE TO AUDIT REPORT




Audit Report 02703-01-HQ               5
SUBJECT: Management’s Response to Recommendations in Audit 02703-01-HQ General
Procurement Oversight Audit of Beltsville’s Agriculture Research Center Steam Study Task
Order Awarded to Perkins + Will, Inc

      TO:      Gil H. Harden
               Assistant Inspector General for Audit
               Office of the Inspector General


   FROM:       Steven M. Helmrich, Director /s/
               Financial Management Division
               Chief Financial Officer


The Agricultural Research Service (ARS) provides the following responses to audit
Recommendations 1 and 2 in Audit 02703-01-HQ General Procurement Oversight Audit of
Beltsville’s Agriculture Research Center Steam Study Task Order Awarded to Perkins + Will,
Inc.


Recommendation 1:
The Office of the Inspector General (OIG) recommends that ARS’s Facilities Division (FD)
formalize and document its processes and procedures for monitoring and reviewing
recipient-reporting information.


Management Response to Recommendation 1:
ARS concurs with this finding. The FD has documented formal processes and procedures for
monitoring and reviewing recipient-reporting information as required by this recommendation
and provided it to the OIG.


Recommendation 2:
ARS’s Financial Management Division should also formalize and document its processes and
procedures for reporting on Recovery.gov; this includes validating information on Recovery.gov
using its core financial system.


Management Response to Recommendation 2:
ARS concurs with this finding. Processes and procedures for reporting and validating
information on Recovery.gov were prepared as recommended and provided to OIG as well.

Audit Report 02703-01-HQ                                                                      6
